0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Rehearing in 20-142, Michael
Skidmore, Trustee for the Randy Craig Wolfe Trust v.
Led Zeppelin et al., was sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 30th day of October, 2020:
Helene Freeman, Esquire
Phillips Nizer LLP
485 Lexington Ave.
New York, NY 10017
(212) 841-0547
hfreeman@phillipsnizer.com
Attorney for Respondents
James Patrick Page, Robert Anthony Plant, and John
Paul Jones (collectively with John Bonham (Deceased),
professionally known as Led Zeppelin)
Peter J. Anderson, Esquire
865 S Figueroa Street I Suite 2400
Los Angeles, CA 90017
(213) 633-6800
peteranderson@dwt.com
Attorney for Respondents
Super Hype Publishing, Inc., Warner Music Group
Corp., Warner/Chappell Music, Inc., Atlantic
Recording Corporation, and
Rhino Entertainment Company

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Alfred J. (AJ) Fluehr, Esquire
FRANCIS ALEXANDER LLC
280 N. Providence Road I Suite 1
Media, PA 19063
(215) 341-1063
aj@francisalexander.com

Attorney for Petitioner
Michael Skidmore, Trustee for the
Randy Craig Wolfe Trust

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 30, 2020.

DonnaJ. Wo
Becker Gallag er Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

(Jcl;j~ 3 () cXJdJ

Notary P~ :

[j.

5;J;

[seal]
JOHN D. GALLAG.HER
·,otary Public, State of Ohio

My Climmission Expir:s
r:,.,bruary 14, 20.::3

